 WR-B-02-03




                              SANDIA NATIONAL LABORATORIES
                              PROCUREMENT CARD PROGRAM
          AUDIT
         REPORT




                                        AUGUST 2002



 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                   U. S. DEPARTMENT OF ENERGY
                         Washington, DC 20585

                              August 6, 2002




MEMORANDUM FOR: ASSOCIATE DIRECTOR FOR MANAGEMENT AND
                ADMINISTRATION

FROM:                     Lawrence R. Ackerly, Director (Signed)
                          National Nuclear Security Administration Audit Division

SUBJECT:                  INFORMATION: Audit Report on "Sandia National
                          Laboratories Procurement Card Program"

BACKGROUND

Sandia National Laboratories' Procurement Card Program provides employees with the
ability to procure low value, commercially available goods and services quickly and
easily. The program, which began in the mid-1990's, has grown from about 25
cardholders with purchases of about $500,000 to over 1,600 cardholders with purchases
totaling about $55 million.

Sandia's internal auditors reviewed the internal controls over procurement cards in 1998
and 1999 and found that restricted items were being purchased, receipts were not being
maintained, and unauthorized users were making purchases. In addition, a recent Office
of Inspector General report, U.S. Department of Energy's Purchase Card Programs –
Lessons Learned (IO1OP001, February 2002), disclosed that the Department of Energy's
system of safeguards and controls over its purchase card programs needed to be
strengthened.

In light of the Procurement Card Program's growth and problems previously identified by
Sandia Internal Audit and the Office of Inspector General, we sought to determine
whether procurement cards were being used appropriately.

RESULTS OF AUDIT

We found that Sandia procurement cardholders:

     •   Purchased restricted items;
     •   Split purchases to avoid transaction limits; and,
     •   Allowed unauthorized users to make purchases.

Sandia had not enforced its existing policies and procedures nor did it have adequate
controls over the approval of transactions. Without the necessary policies and procedures,
the risk of waste or abuse within the Procurement Card Program is increased.
We recommended that the Manager, Albuquerque Operations Office require Sandia to comply
with the actions stipulated in its Procurement Manual. In addition, we recommended that the
managers review receipts for compliance with purchase limits, as well as the type of purchase,
and incorporate an "appropriate use" performance measure into its performance plan.

MANAGEMENT REACTION

Management concurred with the recommendations and is in the process of initiating corrective
actions.

Attachment

cc: Manager, Albuquerque Operations Office
SANDIA NATIONAL LABORATORIES PROCUREMENT CARD
PROGRAM

TABLE OF
CONTENTS



               Overview

               Introduction and Objective .......................................................... 1

               Conclusions and Observations.................................................. 1


               Procurement Card Program

               Details of Finding ....................................................................... 2

               Recommendations and Comments ........................................... 4


               Appendices

               Management Comments ............................................................ 5

               Prior Audits ................................................................................. 8

               Scope and Methodology ............................................................. 9
OVERVIEW
INTRODUCTION AND   Employees of Sandia National Laboratories (Sandia) have several
OBJECTIVE          procurement methods available to them, to include the Procurement
                   Card Program. This Program provides employees with the ability to
                   procure low value, commercially available goods and services without
                   going through the more protracted procurement process. Sandia's
                   Procurement Card Program, which began in the mid-1990's, has grown
                   from about 25 cardholders with purchases of about $500,000 to over
                   1,600 cardholders with purchases totaling about $55 million.

                   In 1998 and 1999 reviews of internal controls over procurement cards,
                   Sandia's internal auditors found that restricted items were being
                   purchased, receipts were not being maintained, and unauthorized users
                   were making purchases. In addition, a February 2002 Office of
                   Inspector General Report, U.S. Department of Energy's Purchase Card
                   Programs – Lessons Learned (IO1OP001), disclosed that the
                   Department of Energy's system of safeguards and controls over its
                   purchase card programs needed to be strengthened.

                   In light of the Procurement Card Program's growth and problems
                   previously identified by Sandia Internal Audit and the Office of
                   Inspector General, we sought to determine whether procurement cards
                   were being used appropriately.


CONCLUSIONS AND    Sandia procurement cardholders continued to purchase restricted items
OBSERVATIONS       and split purchases, thereby avoiding transaction limits. We also
                   determined that unauthorized users made purchases. These
                   inappropriate purchase activities occurred because Sandia had not
                   enforced its existing policies and procedures and did not have adequate
                   controls over the approval of transactions. As a result, the risk of waste
                   or abuse was increased.

                   We recommended that the Manager, Albuquerque Operations Office
                   require Sandia to comply with the actions stipulated in its Procurement
                   Manual. In addition, we recommended that the Department require
                   Sandia managers to review receipts for compliance with purchase limits
                   as well as the type of purchase and incorporate an "appropriate use"
                   performance measure into its performance plan.



                                                 __________(Signed)_____
                                                 Office of Inspector General



Page 1                                                       Introduction and Objective/
                                                          Conclusions and Observations
Procurement Card Program

Use of Procurement Cards   Our review of FY 2001 purchases disclosed that cardholders bought
                           restricted items and split purchases, thereby avoiding dollar limits. Out
                           of a sample of 119 purchases, we found that Sandia employees
                           purchased six restricted items. One cardholder, for example, bought a
                           computer, a specifically prohibited item, at a cost of over $2,100.
                           Others bought specialty built items, which are also specifically
                           restricted, at a cost of over $1,400.

                           In addition, our sample identified that thirty-one purchases totaling over
                           $17,900 were made by unauthorized users. In one case, a cardholder
                           had given his procurement card to a colleague who made all purchases
                           on that card. In another case, a cardholder allowed several individuals
                           to charge purchases to the holder's card at a special web page set up to
                           buy material from a vendor. In an expanded review of the transactions
                           made through this web page, we determined that over $284,000 had
                           been charged to the holder's procurement card in FY 2001. Although
                           we reviewed only cost, not appropriateness, we concluded that
                           delegating card use was a violation of Sandia's policy that could lead to
                           the purchase of restricted or unneeded items. Sandia officials stated
                           that this was an approved pilot program; however, we did not receive
                           any documentation stating that this cardholder was authorized to allow
                           others to make purchases on his procurement card.

                           Additionally, we reviewed the FY 2001 procurement card transaction
                           universe and identified seven instances where purchases were split for
                           the apparent purpose of circumventing the card's spending limit. One
                           cardholder, for example, split a purchase totaling over $48,400 into two
                           equal amounts, making the purchase fit under the $25,000 transaction
                           limit. In another example, three cardholders split one purchase totaling
                           over $25,000. Each cardholder charged multiple amounts, thereby
                           avoiding the transaction limits.

Procurement Card           Sandia's Procurement Manual (Manual) establishes the policy for using
Requirements               procurement cards. The Manual identifies items that may not be
                           purchased with a procurement card, how much can be spent with a
                           procurement card, who is authorized to use a procurement card, and
                           what documentation must be maintained by cardholders. The Manual
                           lists 25 items and services that should not be purchased with a
                           procurement card; these prohibited purchases include cellular phone
                           airtime charges, computers, and items that must be developed or built to
                           particular specifications.




Page 2                                                                          Details of Finding
                       The Manual also outlines the dollar limits on procurement card use as
                       follows: (1) $2,500 for low value services such as one-time repairs, (2)
                       $5,000 for any individual item, (3) $25,000 for any individual
                       transaction, and (4) $25,000 per procurement card per month. The
                       Manual stipulates that cardholders must not split orders to remain
                       within these established limits. Another restriction is on the
                       procurement authority given to the cardholder. Specifically, this
                       authority is personal and, as such, may not be shared, delegated, or
                       transferred. In addition, there is a requirement that procurement
                       documentation such as receipts, invoices, and packing slips must be
                       retained for at least three years and must contain the purchased item's
                       description as well as price.

Controls Over          Sandia's previous internal audit reports included recommendations that
Procurement Card Use   Sandia outline the consequences of noncompliance in its Manual,
                       improve its monitoring of compliance with the Manual, and require
                       approval of each manager's monthly reconciliation statements recorded
                       on Sandia's computerized reconciliation system. We noted, however,
                       that Sandia had not yet established a process to independently review
                       and approve purchases made by managers. We also noted a weakness
                       in Sandia's procurement card policy and that performance measures
                       relating to the Procurement Card Program were not as useful as they
                       could have been.

                       We found that no one was required to review purchases made by Sandia
                       managers. In addition, a cardholder's cognizant manager was not
                       required to review receipts for the items purchased. Consequently, a
                       manager's knowledge of what was actually purchased was limited to the
                       description entered by the cardholder into the reconciliation system. A
                       cardholder, therefore, could easily cover the purchase of restricted
                       items. The inadequacy of this control can be seen in the earlier
                       example of a computer purchase. In this instance, the cardholder
                       entered the description "computer parts" (non-restricted items) when the
                       actual purchase was a computer (a restricted item). Some managers did
                       not require cardholders to enter any description of the purchase at all
                       into the reconciliation system. We also noted that Sandia did not assure
                       that cardholders adhered to the policy of keeping receipts. Our sample,
                       for instance, identified two purchases, which had no receipts or other
                       supporting documentation. Without such documentation, the
                       appropriateness of purchases made with procurement cards cannot be
                       determined.




Page 3                                                                       Detail of Finding
                   The performance measure for the Procurement Card Program also
                   contributed to the noncompliance because it focused only on the dollar
                   amount spent and not on what was purchased. That is, Sandia met its
                   performance target if dollars spent using procurement cards in the
                   current year matched a specified increase over the prior year. In FY
                   2001, for instance, the measure required a 15 percent increase over FY
                   2000.

Increase Risk      Weak internal controls over procurement cards increase the risk that
                   they will be used inappropriately. Based on our sample, we project that
                   procurement cards were used inappropriately in over 15,600 purchases
                   out of over 73,600 purchases made in FY 2001. With such a large
                   projected rate of inappropriate use, the risk of waste or abuse increases
                   dramatically.


RECOMMENDATIONS    We recommend that the Manager, Albuquerque Operations Office
                   require Sandia to:

                      1. Enforce compliance with the requirements of the Procurement
                         Manual including, at a minimum, removal of the procurement
                         cards from those who inappropriately use them;

                      2. Include a requirement in the Procurement Manual that managers
                         who approve procurement card purchases review receipts for
                         compliance with Procurement Manual requirements;

                      3. Institute a procurement card usage review and approval process
                         for managers that currently do not have their purchases
                         reviewed; and,

                      4. Include a measure of appropriate use in the annual performance
                         measures developed for the Procurement Card Program.


MANAGEMENT         The Albuquerque Operations Office concurred with the
COMMENTS           recommendations and proposed corrective actions. Management
                   comments are included in their entirety in Appendix 1.


AUDITOR COMMENTS   Management's proposed actions are responsive to our
                   recommendations.




Page 4                                              Recommendations and Comments
Appendix 1




Page 5       Management Comments
Appendix 1 (continued)




Page 6                   Management Comments
Appendix 1 (continued)




Page 7                   Management Comments
Appendix 2
            PRIOR REPORTS RELATING TO PROCUREMMENT CARDS


   Office of Inspector General

   •   U.S. Department of Energy's Purchase Card Programs – Lessons Learned (IO1OP001,
       February 2002). This letter report summarizes the findings of the Office of Inspector General to
       date and presents a series of "lessons learned." This report states that the Department of
       Energy's system of safeguards and controls over its purchase card programs needs to be
       strengthened.

   •   Assessment of Changes to the Internal Control Structure and Their Impact on the Allowability of
       Cost Claimed by and Reimbursed to Bechtel BWXT Idaho, LLC Under Department of Energy
       Contract No. DE-AC07-99ID13727 (WR-V-02-01, October 2001). This report identified the
       questionable cost incurred when an employee misused a purchase card to buy property for
       personal use.


   Sandia Internal Audit

   •   Corporate Internal Audit Report – Energy and Environment Sector, Sandia Corporation,
       Procurement (AR9715/AU1997002, January 21, 1998). The report found, among other things,
       that the internal controls for administering the procurement card contract and program need
       improvement.

   •   Corporate Internal Audit Report – Energy and Environment Sector, Sandia Corporation,
       Procurement Card (AR1999034, September 24, 1999). The report identified problems with the
       implementation of the Procurement Card Program. Specifically, the report pointed out that the
       procurement card policy was not being followed and it lacked an effective enforcement policy.




Page 8                                                                                       Prior Audits
Appendix 3

SCOPE         The audit was performed between October 2001, and April 2002, at
              Sandia National Laboratories. We reviewed the FY 2001 Procurement
              card purchases.


METHODOLOGY   To accomplish our audit objective, we:

                   •   Reviewed applicable Department of Energy, and Sandia
                       regulations;

                   •   Interviewed Sandia personnel;

                   •   Reviewed prior audit reports related to the audit objective;

                   •   Analyzed procurement card purchase source documentation
                       such as receipts and invoices to identify the purchase of
                       restricted items, purchases exceeding dollar limits, split
                       purchases, and unauthorized use;

                   •   Reviewed the FY01 DOE/SNL Appraisal Agreement to
                       determine whether performance measures were established for
                       the Procurement Card Program;

                   •   Selected a statistical sample of 119 out of the 73,600
                       purchases in FY 2001; and,

                   •   Used Audit Command Language (ACL), a data analysis
                       software, to review the universe of FY 2001 procurements.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the objective of the audit. Accordingly,
              we assessed internal controls and performance measures established
              under The Government Performance and Results Act of 1993. Sandia
              had a performance measure related to the Procurement Card Program.
              However, it only recognized the increased use of the procurement cards
              as a success. Because our review was limited, it would not necessarily
              have disclosed all internal control deficiencies that may have existed at
              the time of our audit. We relied on computer-processed data to
              determine the universe of procurement card purchases. We assessed the
              reliability of this data and determined it was reliable. An exit
              conference was held with management officials on July 17, 2002.


Page 9                                                     Scope and Methodology
                                                                               IG Report No.: WR-B-02-03

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
